Annual Report, “Federal Information Security Management Act: Fiscal Year 2010 Report
from the Office of Inspector General” (IG-11-005, November 10, 2010)

This annual report, submitted as a memorandum from the Inspector General to the NASA
Administrator, provides the Office of Management and Budget (OMB) with our
independent assessment of NASA’s information technology (IT) security posture. For
FY 2010, we adopted a risk-based approach in which we selected high- and moderate-
impact non-national security Agency systems for review. We examined 40 systems that
included systems from all 10 NASA Centers, NASA Headquarters, and the NASA Shared
Services Center.

Although our audit work identifies challenges to and weaknesses in NASA’s IT security
program, we believe that the Agency is steadily working to improve its overall IT security
posture.

Our report to OMB cited that NASA established a program for certification and
accreditation, security configuration management, incident response and reporting,
security training, Plans of Actions and Milestones, remote access, account and identity
management, continuous monitoring, business continuity/disaster recovery, and
overseeing systems operated by contractors. However, we found that internal controls for
these areas needed improvements.

The OMB’s FY 2010 Report to Congress on Implementation of The Federal Information
Security Management Act of 2002 includes information from our report. However, as an
“Intra-Agency Memorandum,” our report is considered exempt from release under the
Freedom of Information Act (FOIA); it also contains NASA Information
Technology/Internal Systems Data that is not routinely released under FOIA. To submit
a FOIA request, see the online guide.
